APPENDIX TO THE
PETITION FOR WRIT OF CERTIORARI

Appendix Table of Contents
Court of Appeals opinion, filed 6/27/19.........

Ka)

Court of Appeals judgment, filed 6/27/19 .....

11(a)

District Court opinion, filed 8/30/18...............

13(a)

District Court judgment, filed 8/30/18...........

23(a)

20 U.S.C. § 1681 (“Title IX”)............................

24(a)

[Sealed - Motion Pending] Expert Report....

25(a)

[Sealed - Motion Pending] School District
Documents...........................................................

60(a)

[Sealed — Motion Pending] Therapy Records

65(a)

[Sealed — Motion Pending] School
Communication..................................................

72(a)

[Sealed - Motion Pending] Student Transcript... 73(a)

1(a)
Appellate Case: 18-2816
Date Filed: 06/27/2019 Entry ID: 4802317

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2816
Jane Doe, (originally named as John Doe
individually and as a parent and next friend to Jane
Doe, a minor), Plaintiff - Appellant
v.
Dardanelle School District, Defendant - Appellee
Appeal from U.S. District Court for the
Eastern District of Arkansas - Little Rock
(4:17-cv-00359-JLH)
Submitted: April 18, 2019
Filed: June 27, 2019

Before COLLOTON, GRUENDER, and ERICKSON,
Circuit Judges.

GRUENDER, Circuit Judge.

2(a)
Jane Doe appeals the district court’s1 grant of
Dardanelle School District’s (“Dardanelle”) motion for
summary judgment and its partial denial of her
motion for leave to amend her complaint. We affirm.
While Doe was a student at Dardanelle, she
claims that another student, R.C., sexually assaulted
her at least twice. The first incident took place in
October 2014 during a kickball game. While running
the bases, R.C. ran into Doe, who was standing on
second base. Doe testified that R.C.’s upper arm
“bump[ed]” her breast and that he called her a bitch.
Doe said she did not know why R.C. called her a bitch
but that she may have been “blocking his way” and
that the comment may have been “out of frustration.”
The second incident took place in October 2015.
Doe and R.C. were seated next to each other while
watching a movie with the lights off in a home
economics class. Doe testified that R.C. reached up her
shorts and touched the outside of her “private parts.”
After Doe pushed him away, R.C. attempted to force
Doe to touch his groin. Doe pulled her arm away, and
R.C. “grabbed” Doe’s breast over her shirt. Doe
testified that nobody else at the table at which she and
R.C. sat saw or heard what happened.
Doe reported both incidents to Dardanelle
administrators, who discussed them with R.C.
Alleging that Dardanelle was deliberately indifferent,
Doe filed a complaint under 20 U.S.C. § 1681 et seq.
(“Title IX”) and 42 U.S.C. § 1983 in May 2017. Doe

1 The Honorable J. Leon Holmes, United States District Judge
for the Eastern District of Arkansas.

3(a)
later moved to amend the complaint, and the district
court denied her motion in part. Dardanelle moved for
summary judgment, and the district court granted its
motion. Doe appeals both orders.
We review a grant of summary judgment de
novo, considering the facts “in the light most favorable
to the nonmoving party.” Hiland Partners GP
Holdings, LLC v. Nat’l Union Fire Ins. Co. of
Pittsburgh, PA, 847 F.3d 594, 597 (8th Cir. 2017). A
motion for summary judgment will be granted where
“the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
“Only disputes over facts that might affect the
outcome of the suit under the governing law will
properly preclude the entry of summary judgment."
Anderson v. Liberty Lobby, Inc., All U.S. 242, 248, 106
S.Ct. 2505, 91 L.Ed.2d 202 (1986).
The district court explained that Title IX and §
1983 have the same deliberate indifference standard
and concluded that Dardanelle was not deliberately
indifferent.2 It reasoned that the first incident did not
2 Doe does not argue that the district court erroneously applied
the same deliberate indifference standard to her Title IX and §
1983 claims. Thus, we do not address whether the district court
should have separately considered whether Dardanelle was
deliberately indifferent to unconstitutional conduct and the
rights of students under Doe's § 1983 claim and to student-onstudent harassment under her Title IX claim. Compare Plamp v.
Mitchell School Dist. No. 17-2, 565 F.3d 450, 459, 461 (8th Cir.
2009) (requiring deliberate indifference to or tacit authorization
of unconstitutional misconduct for § 1983 failure-to-act claims
and deliberate indifference to the rights of students for § 1983
failure-to-train claims), with Davis Next Friend LaShonda D. v.

4(a)
put Dardanelle on notice that R.C. might sexually
assault Doe and that though Dardanelle might have
taken more "prudent" steps after the second incident,
it is not liable for "failing to take the most reasonable
course of action or even for responding negligently."
Doe v. Dardanelle School District, No. 4:17cv00359,
2018 WL 3795235, at *4 (E.D. Ark. Aug. 9, 2018). It
additionally observed that even if Dardanelle were
deliberately indifferent, the harassment was not "so
severe, pervasive, and objectively offensive" that it
deprived Doe "of access to the educational
opportunities or benefits provided by the school." Id.
(quoting Davis, 526 U.S. at 650, 119 S.Ct. 1661). The
district court therefore granted Dardanelles motion
for summary judgment.
"Deliberate indifference is a stringent standard
of fault that cannot be predicated upon mere
negligence." Doe v. Flaherty, 623 F.3d 577, 584 (8th
Cir. 2010) (internal quotation marks and citation
omitted). Under Title IX, Dardanelle is liable only if
its "deliberate indifference effectively 'cause[d]' the
discrimination." Davis, 526 U.S. at 642-43, 119 S.Ct.
1661 (alteration in original). We "should refrain from
second-guessing the disciplinary decisions made by
school administrators." Id. at 648, 119 S.Ct. 1661.
Summary judgment is proper unless Dardanelle was
"clearly unreasonable in light of the known
circumstances." Id. at 648-49, 119 S.Ct. 1661.

Monroe Cty. Bd. of Educ., 526 U.S. 629, 633, 119 S.Ct. 1661, 143
L.Ed.2d 839 (1999) (requiring "deliberate indifference to known
acts of harassment in ... programs or activities" for Title IX
student-on-student harassment claims).

5(a)
First, Doe claims that Dardanelle was
deliberately indifferent because it had "received at
least one other report from a second student, T.R.,
complaining that R.C. had attempted to touch her
inappropriately." R.C. said that he sometimes hit T.R.
on the arm. Vice Principal Lynn Balloun discussed
T.R.'s complaint with R.C., who promised that he
would stop. The record does not indicate when T.R.
made the complaint. Even if we assume the complaint
came before the first incident with Doe as she claims,
we cannot say that Dardanelles response to the
complaint "effectively caused" the first incident with
Doe. See Davis, 526 U.S. at 642, 119 S.Ct. 1661.
Doe next argues that Dardanelles "inaction in
the face of' the first incident involving Doe "led to the
second, more severe assault." But Dardanelle did take
action after the first incident. Doe reported the first
incident to a teacher and to Principal Marcia
Lawrence. In response, Balloun and Counselor
Cynthia Hutchins discussed the incident with R.C.
Both Balloun and Hutchins "sternly" talked to R.C.
"about proper behavior."
While Balloun's notes from his discussion with
R.C. after the first incident indicate that he believed
R.C. had touched Doe several times, Doe testified in
deposition and without reservation that R.C. had
never touched her before the kickball incident. She
also testified that, according to her memory of the
2014 school year, there was only one incident when
R.C. touched her. Accepting Doe's statement is not a
"failure to apply the proper summary judgment
standard," as Doe contends. Rather, the unambiguous

6(a)
testimony of the only witness with firsthand
knowledge demonstrates that there is no genuine
dispute of fact. Cf. Prosser v. Ross, 70 F.3d 1005, 1008
(8th Cir. 1995) ("We have held that a party cannot
avoid summary judgment by contradicting his own
earlier testimony.")
Dardanelles response to the allegation that
R.C. ran into Doe during a kickball game, hitting her
breast with his upper arm and calling her a bitch, is
not "clearly unreasonable in light of the known
circumstances." See Davis, 526 U.S. at 648-49, 119
S.Ct. 1661. Indeed, the "clearly unreasonable
standard is intended to afford flexibility to school
administrators." Estate of Barnwell by and through
Barnwell v. Watson, 880 F.3d 998, 1007 (8th Cir. 2018)
(internal
quotation
marks
omitted).
Thus,
Dardanelles alleged deliberate indifference did not
effectively cause the second incident.
Doe additionally argues that Dardanelles
response to the second incident "exacerbated [her]
injuries." Dardanelle again took steps to address
R.C.S misconduct. Immediately after the incident,
Doe went to the school office to speak with Lawrence.
According to Lawrence, Doe did not tell her at that
time that R.C. had tried to touch her vagina, but Doe
testified that she had told Lawrence.3 During the
conversation, Lawrence asked Doe whether she was
"feeling more upset about this than [she was]
3 We view the facts "in the light most favorable to" Doe, giving
her "the benefit of all reasonable inferences that can be drawn
from the record." Pedersen v. Bio-Med. Applications of Minn., 775
F.3d 1049, 1053 (8th Cir. 2015).

7(a)
showing" and called a school counselor to talk with
Doe.
Lawrence referred the incident to Balloun, who
met with R.C. and the school resource officer, the
school's police officer. Balloun testified that he and the
resource officer questioned R.C. "extensively," and
R.C. denied the incident. Lawrence and Balloun also
talked with the home economics teacher "about
keeping a light on" during movies and informed her
that some "inappropriate touching" had been alleged.
They told the teacher to separate Doe and R.C. in her
class. R.C. was eventually moved to a different class
in April 2016. Balloun testified that after the second
incident, he "tried to pay particular attention, as it
was warranted," to R.C. and that Lawrence likewise
"was trying to keep an eye on" Doe. In light of the fact
that R.C. denied the second incident and nobody else
in the home economics class witnessed it, Dardanelles
response was not "clearly unreasonable in fight of the
known circumstances." See Davis, 526 U.S. at 648-49,
119 S.Ct. 1661.
Doe claims that Dardanelles response to the
incidents led to depression, self-harm, and isolation,
as evidenced by her counselor's notes. Doe told her
counselor that she was afraid that R.C. would "harm
her again" and that R.C. "calls her names." But Doe
testified that after the October 2015 incident she only
interacted with R.C. once and sometimes saw him at
Walmart. Further, we agree with the district court
that, even if Dardanelle were deliberately indifferent,
it was not "deliberately indifferent to sexual
harassment... that is so severe, pervasive, and

8(a)
objectively offensive that it can be said to [have
deprived Doe] of access to the educational
opportunities or benefits provided by the school."
Davis, 526 U.S. at 650, 119 S.Ct. 1661. Doe's grade
point average increased in both her junior and senior
years, and she graduated on time. See also id. at 652,
119 S.Ct. 1661 ("Damages are not available for simple
acts of teasing and name-calling among school
children, however, even where these comments target
differences in gender."). In sum, the district court
properly granted Dardanelles motion for summary
judgment.
Finally, Doe argues that the district court
should have granted her motion to amend her
complaint in full. Doe sought to add a negligence claim
against Dardanelle through a direct action against its
insurance provider and a claim that Arkansas Code
Annotated section 21-9-301 violates the Arkansas
constitution.4 The district court denied her motion as
futile.5 "We review the denial of leave to amend for
abuse of discretion and questions of futility de novo."
United States ex rel. Roop v. Hypoguard USA, Inc.,
559 F.3d 818, 822 (8th Cir. 2009). "Denial of a motion
for leave to amend on the basis of futility means the
district court has reached the legal conclusion that the
amended complaint could not withstand a motion to
dismiss under Rule 12(b)(6) of the Federal Rules of
4 Section 21-9-301 provides that school districts "shall be immune
from liability and from suit for damages except to the extent that
they may be covered by liability insurance."
5 Doe's motion to amend also included a request to substitute the
"parental claim on behalf of Jane Doe with Jane Doe herself."
The district court granted that portion of her motion.

9(a)
Civil Procedure." Zutz v. Nelson, 601 F.3d 842, 850
(8th Cir. 2010) (internal quotation marks omitted).
"[I]n reviewing a denial of leave to amend we ask
whether the proposed amended complaint states a
cause of action under the [Bell Atlantic Corp. u.
Twombly, 550 U.S. 544, 127 S.Ct. 1955, 167 L.Ed.2d
929 (2007),] pleading standard ...." Id. at 850-51.
Under the Twombly standard, a complaint will
survive a motion to dismiss if it contains "sufficient
factual matter, accepted as true, to state a claim to
relief that is plausible on its face." Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868
(2009) (internal quotation marks omitted).
We agree with the district court that Doe's
negligence claim is futile. As the district court
correctly noted, Dardanelles insurance policy
includes an exclusion for claims or suits "alleging
Sexual Abuse and Molestation," and Doe does not
contest that the policy contains an exclusion against
such lawsuits. The court therefore concluded that the
plaintiffs proposed amendment to add a direct claim
against the insurer is futile.
Doe argues that the district court "erred by
drawing inferences in [Dardanelles] favor." This
argument is not persuasive. Though the district court
must take her factual allegations as true and draw all
inferences in her favor, see Braden v. Wal-Mart
Stores, Inc., 588 F.3d 585, 594-95 (8th Cir. 2009), Doe
offered no factual basis to support the possibility that
the pohcy exclusion does not exist or does not apply.
Thus, we agree with the district court that Doe's
negligence claim is futile.

10(a)
Likewise,
the
district
court
correctly
determined that Doe's Arkansas constitutional claim
is futile. It relied on an Arkansas Supreme Court
decision holding that Ark. Code Ann. section 21-9-301
is consistent with the same Arkansas constitutional
provisions to which Doe points. See White v. City of
Newport, 326 Ark. 667, 672, 933 S.W.2d 800 (1996).
Doe nevertheless claims that the Arkansas Supreme
Court "signaled a sea change" in Bd. of Trs. of Univ.
of Arkansas v. Andrews, 2018 Ark. 12, 535 S.W.3d 616
(2018). She contends that Andrews "singled out [the
court's] 1996-era caselaw," which includes White, "for
faihng to strictly construe and enforce constitutional
provisions." But Andrews involved sovereign
immunity, and we see no reason why its dicta affects
the holding in White. Thus, we agree with the district
court that this claim is likewise futile.
For the foregoing reasons, we affirm.

11(a)
Appellate Case: 18-2816
Date Filed: 06/27/2019 Entry ID: 4802321
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2816
Jane Doe, (originally named as John Doe
individually and as a parent and next friend to Jane
Doe, a minor), Plaintiff - Appellant
v.
Dardanelle School District, Defendant - Appellee
Appeal from U.S. District Court for the
Eastern District of Arkansas - Little Rock
(4:17-cv-00359-JLH)
JUDGMENT
Before COLLOTON, GRUENDER and
ERICKSON, Circuit Judges.
This appeal from the United States District
Court was submitted on the record of the district
court, briefs of the parties and was argued by
counsel.
After consideration, it is hereby ordered and
adjudged that the judgment of the district court in
this cause is affirmed in accordance with the opinion
of this Court.
June 27, 2019

12(a)
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals. Eighth Circuit.
/s/ Michael E. Gans

13(a)
Case 4:17-cv-00359-JLH Document 53 Filed 08/09/18

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
JANE DOE
v.

PLAINTIFF
No. 4:17CV00359 JLH

DARDANELLE SCHOOL
DISTRICT

DEFENDANT

OPINION AND ORDER
J. LEON HOLMES, District Judge.
Jane Doe was a student in the Dardanelle
School District until her recent graduation. She
alleges that while she was a student another student
sexually assaulted her on two separate occasions. She
sued the District under Title IX of the Education
Amendments of 1972, 20 U.S.C. § 1681 et seq., and
under 42 U.S.C. § 1983. The District has moved for
summary judgment on both claims.
A court should grant summary judgment if the
evidence demonstrates that there is no genuine
dispute as to any material fact and the moving party
is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a). The moving party bears the initial burden of
demonstrating the absence of a genuine dispute for
trial. Celotex Corp. v. Catrett, 411 U.S. 317, 323, 106
S. Ct. 2548, 2553, 91 L. Ed. 2d 265 (1986). If the
moving party meets that burden, the nonmoving party

14(a)

must come forward with specific facts that establish a
genuine dispute of material fact. Matsushita Elec.
Indus. Co., Ltd. u. Zenith Radio Corp., 475 U.S. 574,
587, 106 S. Ct. 1348, 1356, 89 L. Ed. 2d 538 (1986);
Torgerson v. City of Rochester, 643 F.3d 1031, 1042
(8th Cir. 2011) (en banc). A genuine dispute of
material fact exists only if the evidence is sufficient to
allow a reasonable jury to return a verdict in favor of
the nonmoving party. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248, 106 S. Ct. 2505, 2510, 91 L. Ed. 2d
202 (1986). The Court must view the evidence in the
light most favorable to the nonmoving party and must
give that party the benefit of all reasonable inferences
that can be drawn from the record. Pedersen v. BioMed. Applications of Minn., 775 F.3d 1049, 1053 (8th
Cir. 2015). If the nonmoving party fails to present
evidence sufficient to establish an essential element of
a claim on which that party bears the burden of proof,
then the moving party is entitled to judgment as a
matter of law. Id.
Doe complains of two incidents1 The first
happened during the first semester of the 2014 school
year when Doe was in ninth grade. She was playing
kick ball in physical education class when a male
student ran into her and called her a "bitch."
Document #14-5 at 51. In running into her, the boy's
upper arm hit her breast. Id. She says that he did not
grab her. Id. at 67. Doe says that this was the first
adverse interaction she had with that student and the
1 The District says that Doe's current accounts of these incidents
are very different from and more egregious than her
contemporaneous accounts, but as required by the summary
judgment standard, the Court will view the evidence in the light
most favorable to Doe and recount the incidents as she now
reports them.

15(a)
only one in her ninth-grade year. Id. at 56-57. After
the incident, Doe told her English teacher as well as
the school principal, Marcia Lawrence. Doe says that
she told Lawrence that the student "called [her] the
'B' word and hit [her]." Id. at 58. Doe says that
Lawrence said that she would talk to the male student
and then sent Doe back to class. Id. at 60.
Lawrence testified that she reassured Doe,
talked to her about two or three things, told Doe that
she was going to refer the matter to the assistance
principal, Lynn Balloun, who is a male and ask him to
talk to the male student, and told Doe that she should
immediately come back and report and further issues.
Document #14-2 at 18. Balloun testified that he
questioned the male student extensively and
counseled the student sternly in the presence of a
school counselor. Document #14-3 at 13, 17. Balloun
memorialized the meeting with the male student as
follows: "Complaint by [Doe] that [the male student]
has been trying to touch her inappropriately. It
evidently has happened several times. Counseled [the
male student] that if it happened again he would have
to deal w/the [student resource officer]. He did not
deny it." Document #42-14.
The second incident happened on October 26,
2015, when Doe was in tenth grade and involved the
same male student. The two students had home
economics together. Document #14-5 at 68. Students
were not assigned seats by the teacher; they could
select their seats themselves. Id. Doe and the male
student selected seats at the same table next to each
other. Id. Does says that while she was in home
economics watching a movie, the male student
"reached his hand up [her] shorts and touched [her],"
tried "to make [her] touch him down there," and "tried

16(a)
to grab [her] boob and then grabbed it." Id. at 93. Doe
left the classroom and reported the incident to
Lawrence. Id. at 91. Doe says that Balloun was also in
Lawrence's office when she reported the male
student's assault. Id. at 92. Doe recalls Lawrence
saying, "I will talk to him about that. That's not going
to happen." Id.
Lawrence testified that Doe did not report that
the male student put his hand in her shorts and
touched her; she remembers Doe telling her that the
male student tried to put Doe's hand on his groin and
tried to touch Doe's breast. Document #14-2 at 25;
Document #14-9. Upon receiving this report she told
Doe that action more severe than being counseled
would be taken against the male student. Document
#14-2 at 25. She says she asked Doe if she wanted to
be removed from the class but that Doe said she liked
the class and wished to stay. Id. at 26. Lawrence says
that she told Doe that she would speak with the home
economics teacher, that she would ensure different
seating arrangements, and that she would instruct
the teacher not to pair Doe and the male student up
for any class work. Id. Lawrence says that she
recommended that Doe speak with a counselor but
that Doe refused. Id. In fight of Doe's refusal,
Lawrence says that she asked a counselor to come to
her office and Doe recounted the event again, this time
with both Lawrence and the counselor. Id. at 26-27.
The counselor confirmed this account. Document #1412 at 10.
The day of the incident, Lawrence issued a
disciplinary referral of the male student to Balloun.
Document #14-2 at 27. Lawrence directed the teacher
to separate Doe and the male student, and Doe was
moved to a different seat. Document #14-11 at 16;

17(a)
Document #14-5 at 96. Lawrence also discussed the
incident with the teacher and instructed her "about
keeping a light on, or making sure there was a lamp
that was a little bit brighter in the classroom."
Document #14-11 at 17.
Balloun wrote a memo dated October 26, 2015,
in which he documents the action he took in response
to Lawrence's referral. Document #14-8. The report
states that Balloun spoke with the male student in the
presence of the school's police officer because "[i]t had
been reported once again by [Doe] that [the male
student] had touched her in an inappropriate
manner." Id. It describes the male student's very
different account and ends by noting that the officer
and Balloun warned the male student "not to let
himself be put in a position where there was any
question." Id. Balloun said that following the second
incident he "tried to pay particular attention, as it was
warranted, to [the male student]" and Lawrence tried
"to keep an eye on [Doe]." Document #14-3 at 17.
Lawrence testified that other than questioning by
Balloun and the school police officer, no disciplinary
action was taken against the male student. Document
#14-2 at 34. She said that the student vehemently
denied Doe's account and that "it was very much a he
said she said situation." Id.
Doe did not tell her parents about the October
2015 incident after it happened because she feared
they would not believe her. Document #14-5 at 98. She
eventually told them months later. Id. at 101. In April
2016, Doe's parents confronted Lawrence and Balloun
about the District's handling of the October 2015
incident. Lawrence explained that she did not know
the incident involved the male student reaching inside
Doe's shorts and touching her. Document #14-2 at 44.

18(a)
Doe also testified that Lawrence told her parents that
Lawrence did not "recall [Doe] telling us that that
happened." Document #14-5 at 102. After the meeting
with Doe's parents, Lawrence says that she
immediately reported the sexual assault to a hotline
and turned the matter over to the police. Document
#14-2 at 44.
Doe continued to attend school in the District
and graduated in May 2018. She did not have any
other interactions with the male student or any other
similar incidents at the school after the October 2015
assault. Document #14-5 at 96-97. Doe's grade point
average in the 2014-15 school year was 2.18; in the
2015-16 school year it was 1.86; in the 2016-17 school
year it was 2.73; and in the 2017-18 school year it was
3.00. Document #14-1.
The District may be liable for student-onstudent harassment under Title IX and section 1983
if it acted with deliberate indifference. See Davis Next
Friend LaShonda D. v. Monroe Cty. Bd. of Educ., 526
U.S. 629, 633, 119 S. Ct. 1661,1666, 143 L. Ed. 2d 839
(1999) (recognizing a private cause of action for
damages under Title IX); Doe v. Flaherty, 623 F.3d
577, 584-85 (8th Cir. 2010). The Supreme Court has
instructed that the deliberate indifference standard
used to establish municipal liability under section
1983 is the same standard used under Title IX. Davis,
526 U.S. at 642, 119 S. Ct. at 1671. Under this
standard, the District will be liable only if its "own
deliberate indifference effectively v cause [d]' the
discrimination." See id. at 643, 119 S. Ct. at 1671
(alteration
in
original)
(citation
omitted).
Additionally, the District is subject to Lability only
where it is deliberately indifferent to "known acts of
harassment in its programs or activities . . . that is so

19(a)
severe, pervasive, and objectively offensive that it
effectively bars the victim's access to an educational
opportunity or benefit." Id. at 633, 119 S. Ct. at 1666.
While a school district may be liable under Title
IX
for
student-on-student
harassment,
the
circumstances in which liability may be imposed are
hmited and school districts enjoy broad discretion in
responding to student-on-student harassment. Id. at
646-49, 119 S. Ct. at 1673-74. Courts should not
"second-guessG the disciplinary decisions made by
school administrators." Id. at 648, 119 S. Ct. at 1674.
Victims of harassment are not entitled "to make
particular remedial demands," and a school need not
necessarily expel "every student accused of
misconduct involving sexual overtones." Id. Summary
judgment is appropriate in cases where a school
district's response was not "clearly unreasonable in
hght of the known circumstances." Id. at 648, 119 S.
Ct. at 1674 (stressing that the standard "is not a mere
'reasonableness' standard"); Gant ex rel. Gant v.
Wallingford Bd. of Educ., 195 F.3d 134, 141 (2d Cir.
1999) (cautioning against "transform [ing] every school
disciplinary decision into a jury question").
Deliberate indifference is "a stringent standard
of fault." Shrum ex rel. Kelly v. Kluck, 249 F.3d 773,
780 (8th Cir. 2001). Here, Doe has not shown that the
District was deliberately indifferent to the
harassment she experienced. See Davis, 526 U.S. at
645, 119 S. Ct. at 1672 (holding that deliberate
indifference at a minimum requires a school district to
cause a victim to undergo harassment or make the
victim vulnerable to it). Doe first informed the District
of harassment after the male student called her a
"bitch" and ran into her breast with his upper arm.
The Court is mindful that the response of school

20(a)
administrators to student misconduct is tempered and
informed by the reality that "students are still
learning how to interact appropriately with their
peers." Id. at 651, 119 S. Ct. at 1675. Lawrence issued
a disciplinary referral to Balloun, and Balloun
promptly counseled the male student regarding his
conduct. The Court cannot say that the District's
response was clearly unreasonable upon learning that
a ninth-grade male student used a demeaning word
against a female student and ran into her breast with
his upper arm while playing kick ball.
Doe says that the District had adequate notice
of the male student's danger based on his disciplinary
record and therefore should be liable for the second
incident. Doe points to an undated disciplinary
referral, wherein the male student was referred to
Balloun after a female student (other than Doe)
complained that he was "trying to touch her
inappropriately." Document #42-12. The referral goes
on to say that the male student said that "he would
sometimes hit her on the arm in art" and that he
promised to stop. Id. Doe says that this incident
happened "likely before" the kick ball incident.
Document #49 at 5. The only evidence of the date of
this other incident is Balloun's recollection in his
deposition. There, he said that he did not know when
the incident took place. Document #42-2 at 8. Doe also
says that the District knew of other instances where
the male student inappropriately touched Doe
because after counseling the male student after the
first incident, Balloun noted that the inappropriate
touching "evidently has happened several times." Id.
Conversely, Doe testified unambiguously that she had
no incidents prior to the kick ball incident with the
male student. Document #14-5 at 56-57.

21(a)
Even considering these other disciplinary
incidents, the District was not on notice that the male
student would force himself on Doe and sexually
assault her in the way that she alleges. The District's
response to the first incident was not deliberate
indifference causing the second incident. The District
took action after the first incident. While Doe
contends that the action should have been more
severe, Doe could survive summary judgment only if
the District could be vicariously liable for the male
student's conduct or liable under a negligence
standard. Cf. Shrum, 249 F.3d at 778 (explaining that
the purpose of the "stringent" deliberate indifference
standard is to prevent liability "collapsing into state
tort law or into respondeat superior liability").
The question remains whether the District's
response to the second incident was deliberately
indifferent to Doe. Immediately after Doe reported the
assault, Lawrence issued a disciplinary referral of the
male student to Balloun. Lawrence also saw to it that
Doe and the male student were separated. Lawrence
discussed the incident with the teacher and instructed
her "about keeping a light on, or making sure there
was a lamp that was a little bit brighter in the
classroom." Document #14-11 at 17. Balloun
confronted the male student with the school's police
officer the day of the incident. Balloun also said that
he "tried to pay particular attention, as it was
warranted, to [the male student]" and Lawrence tried
"to keep an eye on [Doe]" following the incident.
Document #14-3 at 17. The Court will not secondguess these disciplinary decisions by the District.
There were undoubtedly other options available to the
District, perhaps even more prudent ones, but the
District is not subject to liability for failing to take the

22(a)

most reasonable course of action or even for
responding negligently.
The District is also not subject to liability here
because it was not deliberately indifferent to
harassment that was "so severe, pervasive, and
objectively offensive that it can be said to deprive the
victims of access to the educational opportunities or
benefits provided by the school." See Davis, 526 U.S.
at 650, 119 S. Ct. at 1675. Doe suffered two isolated
incidents of harassment separated by a period of a
year in her ninth- and tenth-grade years. In the wake
of the District's response to the second incident, Doe
had no further interactions with the male student,
suffered no further harassment, and graduated on
time with an improved grade point average. Doe was
not effectively denied access to an educational
opportunity or benefit. Neither Title IX nor section
1983 imposes liability on the District under these
facts. Private actions, such as this one, are limited "to
cases having a systemic effect on educational
programs or activities." Id. at 653, 119 S. Ct. at 1676.
CONCLUSION
For the foregoing reasons, the District's motion for
summary judgment is GRANTED. Document #28.
The District's motion to exclude Doe's expert and
Doe's motion to exclude the District's expert are
DENIED AS MOOT. Document #31 and Document
#38.
IT IS SO ORDERED this 9th day of August 2018.
/s/J. Leon Holmes
J. LEON HOLMES
UNITED STATES DISTRICT JUDGE

)

23(a)
Case 4:17-cv-00359-JLH Document 54 Filed 08/09/18
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
JANE DOE
v.

PLAINTIFF
No. 4:17CV00359 JLH

DARDANELLE SCHOOL
DISTRICT

DEFENDANT

JUDGMENT
J. LEON HOLMES, District Judge.
Pursuant to the Opinion and Order entered
separately today, judgment is entered in favor of the
Dardanelle School District on the claims of Jane Doe.
The complaint of Jane Doe is dismissed with
prejudice.
IT IS SO ORDERED this 9th day of August 2018.
/s/J. Leon Holmes
J. LEON HOLMES
UNITED STATES DISTRICT JUDGE

//(

24(a)
20 U.S. Code § 1681 (Title IX)

(a) Prohibition against discrimination;
exceptions
No person in the United States shall, on the basis of
sex, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under
any education program or activity receiving Federal
financial assistance, except that [exceptions omitted].

,/4'

